Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Wisconsin Physicians Service Insurance Corporation High-Dollar Payments for Medicare Part A Claims Processed by Wheatlands Administrative Services, Inc., for the Period January 1, 2003, Through December 31, 2005
July 14, 2008 | Audit A-07-08-04132
Executive Summary
Wheatlands Administrative Services, Inc., overpaid Medicare providers $222,000 for two inpatient high-dollar ($200,000 or more) claims and three outpatient high-dollar ($50,000 or more) claims for calendar years 2003 through 2005.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS